The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


December 12, 2011                                                         OIG-JJ-027

Commissioners:

This memorandum transmits the Management Letter Report (OIG-ML-12-05) from the audit of
the Commission’s fiscal year 2010 financial statements. We contracted with the independent
certified public accounting firm, Castro & Company LLC, to conduct the fiscal year 2011
financial statement audit. The management letter discusses matters involving internal control
that the auditors identified during the audit but were not required to be included in the audit
reports.

A draft of the letter was provided to you for comment and your comments are included in their
entirety with the report.

The Management Letter Report contains three recommendations for corrective action. In the
next 30 days, please provide me with your management decisions describing the specific actions
you will take to implement each recommendation.

Thank you for the courtesies extended to the both Castro & Company and my staff during this
audit.

Sincerely,



Philip M. Heneghan
Inspector General
U.S. INTERNATIONAL TRADE COMMISSION




  Fiscal Year 2011 Financial Statement Audit

         Management Letter Report
November 8, 2011

Inspector General
U.S. International Trade Commission


We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2011, and have issued our report thereon dated November 8,
2011.

We noted certain matters involving internal control and other operational matters that are
summarized in this letter. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in
other operating efficiencies. These comments are in addition to the material weaknesses and
significant deficiency presented in our Independent Auditor’s Report on Internal Control, dated
November 8, 2011, included in the FY 2011 ITC Agency Financial Report.

We would be pleased to discuss these comments and recommendations with you at any time. We
would also like to express our appreciation to you and all other ITC personnel who assisted us in
completing our work. We have incorporated ITC’s management response to our Management Letter
Report and have also enclosed the full text of ITC’s response letter.

This report is intended solely for the information and use of ITC management, the Office of
Inspector General, and others within the organization and is not intended to be, and should not be,
used by anyone other than these specified parties.


Sincerely,




Castro & Company, LLC




                                                1
1. Improvements in the Internal Controls over the Cash Disbursement Process are Needed

During our testing to assess management controls and compliance with applicable laws, regulations,
and procedures relative to cash disbursement procedures, the following conditions were noted:

   x   ITC did not always perform a sufficient review and analysis of its expenditures to determine
       if payments were properly supported, classified, or reported in the proper period, including
       the following:

          o Finance processed and paid invoices that were not properly received/accepted and
            approved for payment by a Contracting Officer’s Technical Representative (COTR).
          o Intra-Governmental Payment and Collection (IPAC) schedule payments were not
            stamped, signed and dated as received/accepted and approved for payment.
            Additionally, IPAC payments were not supported by sufficient documentation
            detailing the goods/services received.

   x   We noted for one vendor, that cell phone and Blackberry wireless services were received for
       the period of September 22 to October 21, 2010. However, there was no obligating document
       support for the services provided. We were informed by the COTR that during this period, a
       new contract was being negotiated with the vendor. Wireless services continued to be
       received in spite of the absence of a current contract. Receiving services and creating
       expenditures without authorized obligating documentation is a control deficiency that could
       lead to an Anti-Deficiency Act violation.

          o Subsequent to services being provided, on January 4, 2011, a contract was completed
            with a retroactive performance period of October 1, 2010 through September 30,
            2011.
          o The invoice for wireless services provided was received by Finance on November 1,
            2010, but it was not paid until February 18, 2011. As a result, the invoice was paid
            more than 60 days after the date the invoice was received. Interest fees were not
            calculated or paid.

   x   We noted that in multiple instances, disbursements were made more than thirty days after the
       invoice was received by Finance. Additionally, there was no documentation in the file to
       support why the invoices were not paid within 30 days.

   x   We noted that in multiple instances, invoices were approved for payment more than 30 days
       after the receipt of goods and services by the COTR.


ITC did not follow their written policies and procedures specific to processing invoices; causing
individuals responsible for reviewing and approving the invoice (e.g., the Contracting Officer’s
Technical Representative, Contracting Officer, and the Finance staff) to process invalid invoices,
and/or process invoices incorrectly.




                                                2
Government Accountability Office (GAO) Standards of Internal Control in the Federal Government
states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The
       documentation should appear in management directives, administrative policies, or
       operating manuals and may be in paper or electronic form. All documentation and
       records should be properly managed and maintained.

5 Code of Federal Regulation (CFR) § 1315.4, Prompt payment standards and required notices to
vendors, states the following relating to the Prompt Payment Act:

       (c) Review of invoice. Agencies will use the following procedures in reviewing
       invoices: (1) Each invoice will be reviewed by the designated agency office as soon
       as practicable after receipt to determine whether the invoice is a proper invoice as
       defined in § 1315.9(b); (2) When an invoice is determined to be improper, the agency
       shall return the invoice to the vendor as soon as practicable after receipt, but no later
       than 7 days after receipt…”

       …f) Starting the payment period. The period available to an agency to make timely
       payment of an invoice without incurring an interest penalty shall begin on the date of
       receipt of a proper invoice…

       (g) Determining the payment due date. (1) Unless otherwise specified, the payment is
       due either: (i) On the date(s) specified in the contract; (ii) In accordance with
       discount terms when discounts are offered and taken (see § 1315.7); (iii) In
       accordance with Accelerated Payment Methods (see § 1315.5); or (iv) 30 days after
       the start of the payment period as specified in paragraph (f) of this section…

5 CFR § 1315.10, Late payment interest penalties states:

       (a) Application and calculation. Agencies will use the following procedures in
       calculating interest due on late payments: (1) Interest will be calculated from the day
       after the payment due date through the payment date at the interest rate in effect on
       the day after the payment due date; (2) Adjustments will be made for errors in
       calculating interest; (3) For up to one year, interest penalties remaining unpaid at the
       end of any 30 day period will be added to the principal and subsequent interest
       penalties will accrue on that amount until paid.




                                                  3
    By not following written policies and procedures, ITC improperly processed invoices.
    Improperly processing invoices by not sufficiently reviewing the invoices to the appropriate
    supporting documentation (e.g., contract) increases the risk that ITC exceeds the authorized
    obligated amount, increases the risk that it is not complying with applicable laws and
    regulations, such as the Anti-Deficiency Act, Federal Acquisition Regulation (FAR) and the
    Prompt Payment Act, and increases the likelihood of paying interest unnecessarily. During FY
    2011, ITC made late payments on 18 percent of all invoices.

Recommendations:

We recommend that ITC’s management:

   1. Develop and implement a checklist for the certifying officer to review the supporting
      documentation, prior to certifying payments. The checklist should, at a minimum include,
      verification of the obligating document, available funding, and COTR approval for payment.

   2. Establish and implement procedures for a quarterly review of the late payments reports and
      determine the causes of late payments. Develop and implement a process to mitigate the
      causes of late payments.


2. Improvements in the Internal Controls over Prepayments are Needed

During our testing, we noted that ITC was expensing immaterial amounts where they prepaid for
services to be received in the future, instead of creating a Prepaid Asset. For example, ITC paid for
subscriptions in advance for an entire year, and expensed the entire amount paid.

ITC did not follow their written policies and procedures specific to prepayments, which could affect
the classification of line items on the financial statements.

Statement of Federal Financial Accounting Standards No. 1, Accounting for Selected Assets and
Liabilities states:

       Prepayments are payments made by a federal entity to cover certain periodic expenses
       before those expenses are incurred. Typical prepaid expenses are rents paid to a lessor
       at the beginning of a rental period. Progress payments made to a contractor based on a
       percentage of completion of the contract are not advances or prepayments. Advances
       and prepayments should be recorded as assets. Advances and prepayments are
       reduced when goods or services are received, contract terms are met, progress is
       made under a contract, or prepaid expenses expire…Advances and prepayments paid
       out by an entity are assets of the entity. Advances and prepayments made to federal
       entities are intragovernmental items and should be accounted for and reported
       separately from those made to nonfederal entities.




                                                 4
U.S. International Trade Commission, Accounting Manual, revised February 2011, Chapter 2,
Financial Reporting Policies and Procedures states:

       Prepaid Expense/Prepayments – An asset that is recorded as a result of USITC
       making payments for goods and services to be received in the near future. While
       Prepaid Expenses are initially recorded as assets, their value is expensed over time as
       the benefit is received.

Recommendations:

We recommend that ITC’s management:

   3. Utilize the listing of prepayments created in FY 2011, create a Prepaid Asset for all payments
      made in advance, such as subscriptions for FY 12.


Status of Prior Year Management Letter Comments

The FY 2010 Management Letter Report identified the following control deficiencies:


                   Finding
           Identified in FY 2010                       Status in FY 2011
         Financial Operations          Incorporated into Material Weakness in the Report
                                       on Internal Control dated November 8, 2011
         Policies and Procedures       Resolved
         FMFIA and OMB A-123           Resolved
         Time and Attendance           Resolved



Management Response:

ITC’s management concurs with the deficiencies identified and described within this report. See
attached response from the Commission’s Chairman.




                                                 5
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
